No.
IN THE
SUPREME COURT OF THE UNITED STATES

BETZAIDA P JERNIGAN
Petitioner (Pro Se)
f-

v.
ROBERT WILKIE, SECRETARY OF VETERANS
AFFAIRS
Respondent

CERTIFICATE OF SERVICE
I, Betzaida P Jemigan, do swear or declare that
on this date, May 11, 2020, as required by the Supreme
Court Rule 29 I have served the PETITION FOR A
WRIT OF CERTIORARI on each party to the above
proceeding or that party’s-

counsel and on every other person required to be
served, by depositing an envelope containing the above
documents

in the

United

States mail properly

addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as
follows: Robert Schneider Office of General Counsel
(027S) and Catherine C. Mitrano, Mary Ann, Flynn,
Catherine A. Chase, Deborah A. Pride (attorneys for
Appellee; The Secretary of the Department of Veteran's
Affairs) to the following address:
Office of General Counsel (027 Records)
U.S Department of Veterans Affairs
810 Vermont Avenue, N.W.
Washington, D. C. 20420
Julie Honan and Y. Ken Lee
U.S. Department of Veterans Affairs,

Office General Counsel (022)
810 Vermont Ave., N.W.
Washington, D.C. 20420
And,
Solicitor General of the United States
Room 5616 Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on May 11, 202Q

471 E Kicklighter Rd
Lake Helen, FI 32744
(757)513-1941
Email: bpjok2@gmail.com

